October 30, 2013


MEMORANDUM FOR:           MEGAN J. BRENNAN
                          CHIEF OPERATING OFFICER AND EXECUTIVE VICE
                          PRESIDENT

                          JOSEPH CORBETT
                          CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE
                          PRESIDENT


                               E-Signed by Robert Batta
                             VERIFY authenticity with e-Sign




FROM:                     Robert J. Batta
                          Deputy Assistant Inspector General
                           for Mission Operations


SUBJECT:                  Management Alert – Voyager Card Program for Highway
                          Contract Routes – Unidentified and Unrecovered Fuel
                          Overpayments (Report Number NO-MA-14-001)

This management alert presents our review of unidentified and unrecovered fuel
overpayments under the Voyager Card Program for Highway Contract Routes for the
July 1, 2009 through June 30, 2010 (2009-2010) fuel year. This issue came to our
attention during our ongoing Assessment of the Operational Effectiveness of the
Voyager Card Program for Highway Contractor Route audit (Project Number
13XG012NO002).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Voyager Card Program for Highway Contract Routes –                                             NO-MA-14-001
  Unidentified and Unrecovered Fuel Overpayments




Introduction

The purpose of this alert 1 is to bring to your attention the need for the U.S. Postal
Service to immediately reconduct the highway contract routes (HCR) Voyager
reconciliation for the 2009-2010 fuel year and recover an estimated $9.9 million in
overpayments due from suppliers. We are issuing this alert due to the urgency and time
sensitivity associated with recovering any overpayments. The Postal Service’s ability to
recover 2 any overpayments for expired and non-renewed contracts becomes
increasingly difficult as time passes. The U.S. Postal Service Office of Inspector
General (OIG) has expressed continued concern 3 with the Postal Service's control
environment and related control weaknesses over the HCR Voyager Card Program.

Since 2005, the Postal Service has been providing HCR suppliers with Voyager fleet
transaction cards from U.S. Bank Voyager Fleet Systems, Inc. to purchase fuel for their
vehicles (also known as the Voyager Card Program). The Postal Service’s Fuel
Management Program (FMP) policy provides guidance to suppliers and the Postal
Service regarding the Voyager Card Program. Under the policy, the Postal Service must
reconcile Voyager card transactions to determine whether supplier purchases exceed
the annual allotted fuel gallons. The Postal Service’s Supply Management, Fuel
Management Category Management Center (CMC) group performs this function.
Accurate reconciliations are vital to the Postal Service so it can recover funds from
suppliers that exceed their allotted fuel gallons.

Conclusion

We estimate that the Postal Service did not properly identify and recover about
$9.9 million in fuel overpayments to HCR suppliers for fuel year 2009-2010. It failed to
collect these overpayments because the HCR Voyager Card Program reconciliation
process was not reasonably conducted and documented. Specifically, the process
lacked:

    Detailed documentation to support fuel pooling by suppliers and the gallons that
     suppliers used over their allotted amount to determine the fuel overpayments. For
     example, for large suppliers, the Postal Service listed only the supplier name,
     over/under gallon amounts, 4 and the amount due, if applicable. The Postal Service

1
  We identified the concerns while following up with prior recommendations in conjunction with our ongoing
Assessment of the Operational Effectiveness of the Voyager Card Program for Highway Contract Routes
(NO-MA-13-003, dated March 22, 2013).
2
  The applicable statute of limitations for breach of a contract with the Postal Service is 6 years pursuant to the
Contract Disputes Act, federal statute - 41 U.S.C. §7103(a)(4)(A).
3
  High Risk Voyager Policy and Procedure Changes for Highway Contractor Routes (NO-MA-13-003, dated
March 22, 2013); Management of the Highway Contract Route Voyager Card Program (NL-AR-11-003, dated June 7,
2011).
4
  Gallons allowed are contracted gallons for that period, usually July 1 to June 30 of the subsequent calendar year,
and the addition of any extra trips recorded.
                                                             1
Voyager Card Program for Highway Contract Routes –                                         NO-MA-14-001
  Unidentified and Unrecovered Fuel Overpayments


     should have included documentation for each of the approved pools by listing every
     contract identified in a pool and the respective contract gallons, extra trip gallons,
     and actual gallons purchased.

    Summarized calculations showing that all gallons and contracts were reconciled
     and accounted for. Specifically, there was no complete list and count of all supplier
     contracts and their annual contract gallon allowances and purchases, or
     documentation on the negotiations and disposition on overpayments and collection.

To test the Postal Service’s methodology, we used the same transaction data from the
Fuel Asset Management System to validate its calculations for selected HCR suppliers.
However, we could not achieve the same results that supported its conclusions on over-
or underpayments for those suppliers.

We determined that the Postal Service improved the reconciliation process after the
2009-2010 fuel year. The Fuel Management CMC group developed a process using a
logical methodology for performing the 2010-2011 fuel year reconciliations and
reconciliations for subsequent years. Although we have not fully audited the process, 5
we performed an initial analysis of it and determined that it more effectively identified all
suppliers in a pool and the respective contract gallons, extra trip gallons, and actual
gallons purchased to be used for the reconciliation process. These reconciliations
identified overpayments of $20.4 million and $18.6 million over two fuel periods –
2010-2011 and 2011-2012. We found the overpayments identified in the Postal
Service’s 2009-2010 reconciliations, at $12.6 million, were significantly lower than the
2 subsequent years, as shown in Table 1. This difference further supports the position
to reconduct the prior reconciliation.

                       Table 1. Overpayments Identified per Fuel Period

                                                                                         Amount
                   Organization                                Fuel Period             (in millions)
       Surface Transportation CMC 6                             2009-2010                  $12.6
       Fuel Management CMC                                      2010-2011                  $20.4
       Fuel Management CMC                                      2011-2012                  $18.6




5
  We plan to perform follow-up audit work on HCR Voyager Card Program reconciliations to fully assess the
methodology the Postal Service currently uses.
6
  Both Surface Transportation CMC and Fuel Management CMC are transportation portfolios that report to the vice
president, Supply Management.

                                                        2
Voyager Card Program for Highway Contract Routes –                                   NO-MA-14-001
  Unidentified and Unrecovered Fuel Overpayments


The OIG previously reported 7 that the estimated value of excess fuel gallons purchased
for the 2009-2010 fuel year was $22.5 million. Comparing the OIG’s estimate to the
$12.6 million identified resulted in a difference of $9.9 million. We believe additional
refunds of overpayments in that amount are due to the Postal Service from suppliers
(see Appendix A for monetary impact).

Recommendations

We recommend the chief operating officer and executive vice president, and the chief
financial officer and executive vice president direct the vice president, Supply
Management, to:

1. Immediately reconduct the 2009-2010 fuel year Voyager Card Program
   reconciliation under the pooling and reconciliation requirements of the Fuel
   Management Program and the current reconciliation methodology.

2. Validate and document the results of additional 2009-2010 fuel overpayment
   determinations and collect these overpayments.

Management’s Comments

Management generally agreed with the finding and recommendations, but disagreed
with the associated monetary impact.

In response to recommendation 1, management stated that its Fuel Management CMC
within Supply Management will evaluate the 2009-2010 reconciliation and compare it
against data from the Fuel Management System. It will identify and evaluate any
anomalies and determine whether there are additional suppliers to whom collection
efforts apply. Management disagreed with the monetary impact, noting that the OIG
used estimates and did not factor in fuel price volatility. It expects to complete the
process by November 2013.

In response to recommendation 2, management stated that the Fuel Management CMC
will initiate a recovery process for any additional suppliers with excess fuel gallons
based on the results of evaluating the 2009-2010 fuel year reconciliation. It also pointed
out that any recovery action must be under clause B-9, “Claims and Disputes Clause,”
within the contracts and the Contracts Dispute Act. See Appendix B for management’s
comments, in their entirety.




7
 Management of the Highway Contract Route Voyager Card Program (Report Number NL-AR-11-003, dated June 7,
2011).

                                                    3
Voyager Card Program for Highway Contract Routes –                       NO-MA-14-001
  Unidentified and Unrecovered Fuel Overpayments




Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report.

Regarding the monetary impact, the $9.9 million was an estimate derived by taking the
estimated value of excess fuel gallons purchased for the 2009-2010 fuel year
($22.5 million, as determined by the OIG) and subtracting the $12.6 million already
identified by the Postal Service as overpayments. The OIG estimated the $22.5 million
in 2011 since there was a lack of documentation and a firm methodology regarding
overpayments. We acknowledge that fuel price volatility is a factor in determining the
reconciliation amount. Further, other variables, such as the appropriate application of
pooling of fuel gallons for contractors, will also affect the amount. We are aware that the
actual amount will likely differ when the reconciliation is performed using the Postal
Service’s established and documented reconciliation methodology. We will resolve any
differences in monetary savings from those identified by the OIG and the Postal Service
during the closeout process.

The OIG considers all of the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                 4
Voyager Card Program for Highway Contract Routes –                                                NO-MA-14-001
  Unidentified and Unrecovered Fuel Overpayments


                                        Appendix A: Monetary Impact


            Recommendation                            Impact Category                            Amount
                                                                                              (in millions)
                        1                             Questioned Costs8                        $9,904,500


                                Monetary Impact – 2009-2010 Reconciliation

The OIG based its estimate of questioned costs totaling $9.9 million in overpayments for
the 2009-2010 fuel period on the best information available at that time and the control
weaknesses the OIG previously reported. The questioned costs represent the difference
in what the OIG previously reported and what the Postal Service calculated as
overpayments for the fuel period 2009-2010, as shown in Table 2.

                                       Table 2. 2009-2010 Reconciliation

                               Organization                              Amount (in millions)
               OIG                                                          $22,535,826
               Postal Service                                               $12,631,326
               Difference                                                   $ 9,904,500
               Source: OIG analysis.




8
    Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, and so forth.

                                                             5
Voyager Card Program for Highway Contract Routes –            NO-MA-14-001
  Unidentified and Unrecovered Fuel Overpayments


                          Appendix B: Management's Comments




                                                 6
Voyager Card Program for Highway Contract Routes –   NO-MA-14-001
  Unidentified and Unrecovered Fuel Overpayments




                                                 7
